IN THE SUPREME COURT OF THE UNITED STATES
No. 19-1177

AMERICAN INSTITUTE FOR INTERNATIONAL STEEL, ef al., Petitioners,
¥.

UNITED STATES, ef al., Respondents.
CERTIFICATE OF COMPLIANCE

I, Richard A. Samp, counsel for amicus curiae The New Civil Liberties Alliance, and a
member of the bar of this Court, hereby certify pursuant to Supreme Court Rule 22(g) and (h)
that this amicus curiae brief complies with the word limitations imposed by those rules.
According to the word processing system used to prepare the brief (WordPerfect X5), the word

count of the brief is 5,823, not including the cover, table of contents, table of authorities, and

Bhd

Richard A. Samp

New Civil Liberties Alliance
1225 Nineteenth Street, NW
Washington, DC 20036
202-869-5210

signature block.

 

Dated: April 27, 2020
